OIG Investigative Reports - Press Release Fairview Heights, Illinois , November 12, 2010 -  Fairview Heights Woman Sentenced  for Financial Crimes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Southern District of Illinois
NEWS RELEASE
OFFICE OF THE UNITED STATES ATTORNEY SOUTHERN DISTRICT OF ILLINOIS
STEPHEN R. WIGGINTON UNITED STATES ATTORNEY
Nine Executive Drive, Fairview Heights, Illinois 62208 402 West Main Street, Benton, Illinois 62812
For Immediate Release Public Information Officer November 12, 2010 FAUSA Randy G. Massey
Fairview Heights Woman Sentenced  for Financial Crimes
Stephen R. Wigginton, United States Attorneyfor the Southern District of Illinois, announced today that Chevette D. Curry, now known as CHEVETTE D. GILL, age 36, of Fairview Heights, Illinois, was sentenced in U.S. District Court for the Southern District of Illinois, to a term of one year imprisonment; 3 years supervised release; $300 special assessment; and restitution of $227,226.00 for filing a false tax return, making a false statement on an application for federal food stamp benefits, and for obtaining federal student loan benefits by fraud or false statement.
CHEVETTE D. GILL entered a plea of guilty on December 29, 2009, to a three-count information alleging that she participated in an investment scheme that defrauded three investors out of a total of $183,105. CHEVETTE D. GILL pled guilty for failing to disclose the existence of fraudulently obtained income on her income tax return for the 2007 tax year. CHEVETTE D. GILL admitted that from 2005-2007 that she underpaid her federal income taxes by $28,612.
CHEVETTE D. GILL also pled guilty to receiving federal food stamp benefits and federal student loan benefits for which she was ineligible because of the undisclosed income. By underreporting her income, CHEVETTE D. GILL received $12,571 in federal food stamp benefits and $2,938 in Federal Pell Grants for which she was ineligible.
The investigation was conducted by the Internal Revenue Service Criminal Investigation Division, the Office of the Inspector General for the Illinois Department of Healthcare and Family Services, the Illinois Securities Department, the U.S. Department of Education OIG/OI, and the U.S. Treasury Inspector General for Tax Administration (TIGTA). The case was prosecuted by Assistant United States Attorney Steven D. Weinhoeft.
Top
Printable view
Last Modified: 12/20/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov